1a
APPENDIX A
United States Court of Appeals for the Federal
Circuit
SOLUTRAN, INC.,
Plaintiff-Cross-Appellant
v.
ELAVON, INC., U.S. BANCORP,
Defendants-Appellants
2019-1345, 2019-1460
Appeals from the United States District Court for
the District of Minnesota in No. 0:13-cv-02637-SRNBRT, Judge Susan Richard Nelson.
Decided: July 30, 2019
ROBERT JAMES GILBERTSON, Greene Espel,
PLLP, Minneapolis, MN, argued for plaintiff-crossappellant.
Also represented by SYBIL LOUISE
DUNLOP, DAVID WALLACE-JACKSON.
JOHN THOMAS VITT, Jones Day, Minneapolis,
MN, argued for defendants-appellants.
Also
represented
by
GREGORY
A.
CASTANIAS,
Washington, DC; PETER MCCREERY LANCASTER,
TIMOTHY
J.
DROSKE,
BEN
DESMOND
KAPPELMAN, Dorsey & Whitney LLP, Minneapolis,
MN.

2a
Before CHEN, HUGHES, and STOLL, Circuit
Judges.
CHEN, Circuit Judge.
U.S. Bancorp and its affiliate Elavon, Inc.
(collectively, Bank) appeal orders in the United States
District Court for the District of Minnesota (1) denying
U.S. Bank’s motion for summary judgment that
claims 1–5 of U.S. Patent No. 8,311,945 (’945 patent),
assigned to Solutran, Inc. (Solutran), are invalid
under 35 U.S.C. § 101 for failing to recite patenteligible subject matter and (2) granting Solutran’s
motion for summary judgment that Solutran’s
products infringe claims 1–5 of the ’945 patent.
Solutran cross-appeals, arguing that the district court
abused its discretion when it denied Solutran the
ability to amend its complaint to include a claim for
willful infringement after the deadline set out in the
scheduling order.
Because we agree with U.S. Bank that claims 1–5
of Solutran’s patent are invalid under § 101, we
reverse.
BACKGROUND
A. The ’945 Patent
The ’945 patent, issued in 2012, describes a system
and method for processing paper checks. ’945 patent.
The patent explains that in the past, the payee would
transport the check to his or her own bank to be read
and processed, then the payee’s bank would transport
the check to the payor’s bank, where it also would be
read and processed. Id. at col. 1, ll. 30–39. At this
point, the payor’s bank would debit the payor’s

3a
account and transfer the money to the payee’s bank,
which would credit the payee’s account. Id. at col. 1,
ll. 39–45.
The Background section of the ’945 patent
explains that the digital age ushered in a faster
approach to processing checks, where the transaction
information—e.g., amount of the transaction, routing
and account number— on the check is turned into a
digital file at the merchant’s point of sale (POS)
terminal. Id. at col. 1, l. 51 – col. 2, l. 8, col. 4, ll. 51–
58 (at the point of purchase, “the merchant keys, or
applies amount captured at POS, into the terminal the
amount of the purchase” and “passes the check
through a MICR (magnetic ink character recognition)
reader to capture the consumer’s account number,
routing number of the financial institution holding the
account, and the check number”). The digital check
information is sent electronically over the Internet or
other network, id. at col. 1, ll. 54– 61, and the funds
are then transferred electronically from one account
to another. Id. at col. 2, ll. 5–8. By converting the
check information into digital form, it no longer was
always necessary to physically move the paper check
from one entity to another to debit or credit the
accounts. Id. at col. 2, ll. 1–5. But retaining the
checks was still useful for, among other things,
verifying accuracy of the transaction data entered
into the digital file. Id. at col. 2, ll. 11–15. It was
well-known that merchants could optionally capture a
digital image of the check at the point of purchase.
Id. at col. 2, ll. 61–63, col. 4, ll. 58–59, FIG. 1; see also
id. at col. 2, ll. 30–31 (“The original check can be
scanned and its digital image stored for later use . . .
.”).
The patent also discloses a method proposed by the

4a
National Automated Clearing House Association
(NACHA) for “back office conversion” where
merchants scan their checks in a back office, typically
at the end of the day, id. at col. 2, l. 65 – col. 3, l. 1,
“instead of at the purchase terminal,” id. at col. 5, ll.
2–4, FIG. 2. A scanner captures an image of the
check, and MICR data from the check is stored with
the image. Id. at col. 3, ll. 1–2. An image file
containing this information can be transferred to a
bank or third-party payment processor. Id. at col. 3,
ll. 2–4.
The patent describes its invention as a system
and method of electronically processing checks in
which (1) “data from the checks is captured at the
point of purchase,” (2) “this data is used to promptly
process a deposit to the merchant’s account,” (3) the
paper checks are moved elsewhere “for scanning
and image capture,” and (4) “the image of the check is
matched up to the data file.” Id. at col. 3, ll. 16–46.
The proffered benefits include “improved funds
availability” for merchants and allegedly “reliev[ing
merchants] of the task, cost, and risk of scanning and
destroying the paper checks themselves, relying
instead on a secure, high-volume scanning operation
to obtain digital images of the checks.” Id. at col. 3, ll.
46–62. Solutran explains that its method allows
merchants to get their accounts credited sooner,
without having to wait for the check scanning step.
The court treated claim 1 as representative,
which the parties do not dispute. See J.A. 47. Claim
1 recites:
1. A method for processing paper checks,
comprising:
a) electronically

receiving

a

data

file

5a
containing data captured at a merchant’s point
of purchase, said data including an amount of
a
transaction
associated
with
MICR
information for each paper check, and said
data file not including images of said checks;
b) after step a), crediting an account for the
merchant;
c) after step b), receiving said paper checks
and scanning said checks with a digital image
scanner thereby creating digital images of said
checks and, for each said check, associating
said digital image with said check’s MICR
information; and
d) comparing by a computer said digital
images, with said data in the data file to find
matches.
Id. at claim 1.
B. District Court and CBM Proceedings
Solutran sued U.S. Bank in the United States
District Court for the District of Minnesota, alleging
infringement of claims 1–5 of the ’945 patent. U.S.
Bank filed an answer and counterclaims alleging,
inter alia, that it did not infringe and that the
asserted claims were invalid under § 101. U.S. Bank
later filed a motion for summary judgment that the
’945 patent was invalid because it did not recite
patent-eligible subject matter under § 101,
specifically because the claims were directed to the
“abstract idea of delaying and outsourcing the
scanning of paper checks.” See J.A. 50. The district
court disagreed, concluding that the claims were not
directed to an abstract idea and the ’945 patent was

6a
therefore patent-eligible.
The district court found a previous covered
business method (CBM) review of the ’945 patent by
the Patent Trial and Appeal Board (Board)
persuasive in reaching its determination. J.A. 52
n.5. In August 2014—two months after the Supreme
Court issued its Alice Corp. Pty. Ltd. v. CLS Bank
International, 573 U.S. 208 (2014), decision—the
Board issued an institution decision denying the
petition as to the § 101 challenge, concluding that
claim 1 of the ’945 patent was not directed to an
abstract idea. U.S. Bancorp v. Solutran, Inc., No.
CBM2014-00076, 2014 WL 3943913 (P.T.A.B. Aug. 7,
2014). The Board reasoned that “the basic, core
concept of independent claim 1 is a method of
processing paper checks, which is more akin to a
physical process than an abstract idea.” Id. at *8.
“Indeed, there is nothing immediately apparent
about this basic, core concept that would indicate
that it is directed to an abstract idea at all.” Id.
The district court’s reasoning aligned with the
Board’s. The district court focused on the physical
nature of checks’ processing and movement and
accused U.S. Bank of improperly construing the
claim to “a high level of abstraction.” J.A. 51–57.
The district court distinguished U.S. Bank’s cited
Federal Circuit and Board decisions involving checkrelated patents on the basis that the ’945 patent, in
its view, is directed to an improved technique for
processing and transporting physical checks, rather
than just handling data that had been scanned from
the checks. J.A. 55.
The district court concluded, in the alternative,

7a
that the asserted claims also recited an inventive
concept under step two of Alice. The district court
accepted Solutran’s assertion that “Claim 1’s
elements describe a new combination of steps, in an
ordered sequence, that was never found before in the
prior art and has been found to be a non-obvious
improvement over the prior art by both the USPTO
examiner and the PTAB’s three-judge panel
(affirmed by the Federal Circuit).” 1 J.A. 58. The
district court also concluded that the claim passes
the machine-or-transformation test because “the
physical paper check is transformed into a different
state or thing, namely into a digital image.” J.A. 59.
U.S. Bank appeals, inter alia, the § 101 ruling.
Solutran cross-appeals on the issue of willful
infringement. We have jurisdiction pursuant to 28
U.S.C. § 1295(a)(1).
DISCUSSION
Patent eligibility under § 101 is a question of law
that may contain underlying issues of fact. Interval
Licensing LLC v. AOL, Inc., 896 F.3d 1335, 1342
(Fed. Cir. 2018) (citing Berkheimer v. HP Inc., 881
F.3d 1360, 1365 (Fed. Cir. 2018)). We review an
ultimate conclusion on patent eligibility de novo. See
id.
The Supreme Court has held that certain
categories of subject matter, including abstract ideas,
CBM2014-00076, which this court affirmed, only
included an obviousness challenge to the ’945 patent, as the §
101 challenge had already been denied at institution. See U.S.
Bancorp v. Solutran, Inc., No. CBM2014-00076, 2015 WL
4698463, at *17 (P.T.A.B. Aug. 5, 2015); U.S. Bancorp v.
Solutran, Inc., 668 F. App’x 363, 364 (Fed. Cir. 2016).
1

8a
are not eligible for patent protection under § 101.
Mayo Collaborative Servs. v. Prometheus Labs., Inc.,
566 U.S. 66, 70, (2012).
“The ‘abstract ideas’
category embodies the longstanding rule that an idea
of itself is not patentable.” Alice, 573 U.S. at 218
(internal brackets and quotation marks omitted). To
determine whether claimed subject matter is patenteligible, we apply the two-step framework explained
in Alice. Id. First, we “determine whether the
claims at issue are directed to a patent-ineligible
concept” such as an abstract idea. Id. Second, if so,
we “examine the elements of the claim to determine
whether it contains an ‘inventive concept’ sufficient
to ‘transform’ the claimed abstract idea into a patenteligible application.” Id. at 221 (internal quotation
marks omitted) (quoting Mayo, 566 U.S. at 72, 80).
At each step, the claims are considered as a whole.
See id. at 218 n.3, 225.
1. Step One
We agree with U.S. Bank that the claims of the
’945 patent are directed to an abstract idea, although
we articulate it a bit differently than U.S. Bank does.
We conclude that the claims are directed to the
abstract idea of crediting a merchant’s account as
early as possible while electronically processing a
check.
We have previously ruled that certain
transaction claims performed in a particular order or
sequence are directed to abstract ideas.
In
Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709 (Fed.
Cir. 2014), the claims at issue were drawn to a
method for distribution of copyrighted content over
the Internet including the steps of, inter alia,

9a
receiving media from a content provider, selecting an
ad, offering the media to the consumer in exchange
for watching the ad, displaying the ad, then allowing
the consumer to access the media. Id. at 714–15. We
determined that the ordered combination of steps
recited “an abstraction—an idea, having no
particular concrete or tangible form.” Id. at 715. We
defined the abstract idea as “showing an
advertisement before delivering free content.” Id.
“Because the innovative aspect of the claimed
invention [wa]s an entrepreneurial rather than a
technological one,” we deemed the invention patentineligible. Id. at 722.
Aside from the timing of the account crediting
step, the ’945 patent claims recite elements similar to
those in Content Extraction & Transmission LLC v.
Wells Fargo Bank, National Ass’n, 776 F.3d 1343
(Fed. Cir. 2014). There, we held that a method of
extracting and then processing information from
hard copy documents, including paper checks, was
drawn to the abstract idea of collecting data,
recognizing certain data within the collected data
set, and storing that recognized data in a memory.
Id. at 1347. We explained that “[t]he concept of data
collection, recognition, and storage is undisputedly
well-known”; “[i]ndeed, humans have always
performed these functions.” Id. We also recognized
that “banks have, for some time, reviewed checks,
recognized relevant data such as the amount,
account number, and identity of account holder, and
stored that information in their records.” Id. Here,
too, the claims recite basic steps of electronic check
processing.
In its background, the ’945 patent
explains that “there has been an industry transition

10a
to the electronic processing of checks[, including] the
recordation of the data ... presented by the check into
a digital format which can then be transferred
electronically.” Id. at col. 1, ll. 53–57, col. 1, ll. 61–
62. It had become standard for the merchant to
capture the check’s transaction amount and MICR
data at the point of purchase. Id. at col. 4, ll. 52–58,
FIG. 1. Further, the patent’s background explains
that verifying the accuracy of the transaction
information stored in the digital file against the
check was already common.2 Id. at col. 2, ll. 13–15.
Crediting a merchant’s account as early as
possible while electronically processing a check is a
concept similar to those determined to be abstract by
the Supreme Court in Bilski v. Kappos, 561 U.S. 593
(2010) and Alice. In Bilski, the Supreme Court
determined that claims directed to “the basic concept
of hedging, or protecting against risk” recited “a
fundamental economic practice long prevalent in our
system of commerce and taught in any introductory
finance class” and therefore “an unpatentable
abstract idea.” 561 U.S. at 611–12. In Alice, the
Supreme Court deemed “a method of exchanging
financial obligations between two parties using a
third-party intermediary to mitigate settlement risk”
to be an abstract idea. 573 U.S. at 219. The desire
to credit a merchant’s account as soon as possible is
an equally long-standing commercial practice.
Solutran argues that the claims “as a whole” are
not directed to an abstract idea. See, e.g., CrossSolutran does not contend that using a digital rather
than paper version of the check for that comparison is
inventive.
2

11a
Appellant’s Op. Br. at 38.
The ’945 patent
articulates two benefits of its invention: (1)
“improved funds availability” because the merchant’s
account is credited before the check is scanned or
verified; and (2) relieving merchants of the task, cost,
and risk of scanning and destroying paper checks by
outsourcing those tasks. ’945 patent at col. 3, ll. 38–
64. At oral argument, Solutran’s counsel conceded
that the claims are not limited to an embodiment
that requires outsourcing. Oral Argument at 25:36–
26:09 (“Claim 1 doesn’t require that it be done by
someone other than the merchant . . . ”). The only
advance recited in the asserted claims is thus
crediting the merchant’s account before the paper
check is scanned. We conclude that this is an
abstract idea.
This is not a situation where the claims “are
directed to a specific improvement to the way
computers operate” and therefore not directed to an
abstract idea, as in cases such as Enfish, LLC v.
Microsoft Corp., 822 F.3d 1327, 1336 (Fed. Cir. 2016).
Solutran’s counsel acknowledged at oral argument
that the ’945 patent’s invention did not improve the
technical capture of information from a check to
create a digital file or the technical step of
electronically crediting a bank account. See, e.g.,
Oral Argument at 23:40–24:12 (“So I grant you that
there is not a specific technical change in the way the
data file is constructed or in the way the crediting
occurs ....”), 33:14–33:29. Nor does the ’945 patent
invention improve how a check is scanned. This is
also not a situation where the claims are “limited to
rules with specific characteristics” to create a
technical effect and therefore not directed to an

12a
abstract idea, as in McRO, Inc. v. Bandai Namco
Games America Inc., 837 F.3d 1299, 1313 (Fed. Cir.
2016). To the contrary, the claims are written at a
distinctly high level of generality.
We do not agree that U.S. Bank “improperly
construe[d] Claim 1 to ‘a high level of abstraction.’”
J.A. 51 (quoting Enfish, 822 F.3d at 1337). In
Enfish, the district court and the appellees
generalized
the
claims
such
that
their
characterization of the alleged abstract idea was
“untethered from the language of the claims.” See
Enfish, 822 F.3d at 1337. That is not the case here;
rather, both our characterization and U.S. Bank’s
characterization are directly tethered to the claim
language. We understand that it may be difficult at
times to determine what the correct level of
abstraction is to characterize the claims. After all,
“all inventions at some level embody, use, reflect,
rest upon, or apply laws of nature, natural
phenomena, or abstract ideas.” Mayo, 566 U.S. at 71.
We share the Supreme Court’s concern that “too
broad an interpretation of this exclusionary principle
could eviscerate patent law.” Id. But where, as here,
the abstract idea tracks the claim language and
accurately captures what the patent asserts to be the
“focus of the claimed advance over the prior art,”
Affinity Labs of Texas, LLC v. DIRECTV, LLC, 838
F.3d 1253, 1257 (Fed. Cir. 2016), characterizing the
claim as being directed to an abstract idea is
appropriate. Moreover, the specification states, and
Solutran does not dispute, that the steps of the claim
are conventional processes for processing checks
electronically.
Contrary

to

Solutran’s

arguments,

the

13a
physicality of the paper checks being processed and
transported is not by itself enough to exempt the
claims from being directed to an abstract idea. As we
explained in In re Marco Guldenaar Holding B.V.,
911 F.3d 1157, 1161 (Fed. Cir. 2018), “the abstract
idea exception does not turn solely on whether the
claimed invention comprises physical versus mental
steps.” In fact, “[t]he claimed methods in Bilski and
Alice also recited actions that occurred in the
physical world.” Id. We have likewise determined
that a method for voting that involved steps of
printing and handling physical election ballots, Voter
Verified, Inc. v. Election Sys. & Software LLC, 887
F.3d 1376 (Fed. Cir. 2018), and a method of using a
physical bankcard, Smart Sys. Innovations, LLC v.
Chi. Transit Auth., 873 F.3d 1364 (Fed. Cir. 2017),
were abstract ideas. And the Supreme Court has
concluded that diagnostic methods that involve
physical administration steps are directed to a
natural law. Mayo, 566 U.S. at 92. The physical
nature of processing paper checks in this case does
not require a different result, where the claims
simply recite conventional actions in a generic way
(e.g., capture data for a file, scan check, move check
to a second location, such as a back room) and do not
purport to improve any underlying technology.
The district court’s and Solutran’s reliance on
the paper checks being processed in two “different
location[s]” via two paths as preventing the claims
from being directed to an abstract idea is also
misplaced. See, e.g., J.A. 51; Cross-Appellant’s Op.
Br. at 39–40, 42–43, 46, 48–49. The claims on their
face are broad enough to allow the transaction data
to be captured at the merchant’s point of purchase

14a
and the checks to be scanned and compared in the
merchant’s back office. The location of the scanning
and comparison—whether it occurs down the
hallway, down the street, or across the city—does not
detract from the conclusion that these claims are, at
bottom, directed to getting the merchant’s account
credited from a customer’s purchase as soon as
possible, which is an abstract idea.
2. Step Two
We disagree with the district court that the ’945
patent claims “contain a sufficiently transformative
inventive concept so as to be patent eligible.” See
J.A. 60. Even when viewed as a whole, these claims
“do not, for example, purport to improve the
functioning of the computer itself” or “effect an
improvement in any other technology or technical
field.” See Alice, 573 U.S. at 225. To the contrary, as
the claims in Ultramercial did, the claims of the ’945
patent “simply instruct the practitioner to implement
the abstract idea with routine, conventional activity.”
772 F.3d at 715. As we noted above, the background
of the ’945 patent describes each individual step in
claim 1 as being conventional. Reordering the steps
so that account crediting occurs before check
scanning (as opposed to the other way around)
represents the abstract idea in the claim, making it
insufficient to constitute an inventive concept. Id.
Any remaining elements in the claims, including use
of a scanner and computer and “routine datagathering steps” (i.e., receipt of the data file), have
been deemed insufficient by this court in the past to
constitute an inventive concept. Content Extraction,
776 F.3d at 1349 (conventional use of computers and
scanners); OIP Techs., Inc. v. Amazon.com, Inc., 788

15a
F.3d 1359, 1363 (Fed. Cir. 2015) (routine datagathering steps).
To the extent Solutran argues that these claims
are patent-eligible because they are allegedly novel
and non-obvious, see Cross-Appellant’s Op. Br. at 49,
52, 54–55, 63, 67, we have previously explained that
merely reciting an abstract idea by itself in a claim—
even if the idea is novel and non-obvious—is not
enough to save it from ineligibility.
See, e.g.,
Synopsys, Inc. v. Mentor Graphics Corp., 839 F.3d
1138, 1151 (Fed. Cir. 2016) (“[A] claim for a new
abstract idea is still an abstract idea.” (emphasis in
original)).
Solutran also argues on appeal that its claims
pass the machine-or-transformation test—i.e.,
“transformation and reduction of an article ‘to a
different state or thing.’” See Gottschalk v. Benson,
409 U.S. 63, 70 (1972). While the Supreme Court
has explained that the machine-or-transformation
test can provide a “useful clue” in the second step of
Alice, passing the test alone is insufficient to
overcome Solutran’s above-described failings under
step two. See DDR Holdings, LLC v. Hotels.com,
L.P., 773 F.3d 1245, 1256 (Fed. Cir. 2014) (“[I]n
Mayo, the Supreme Court emphasized that satisfying
the machine-or-transformation test, by itself, is not
sufficient to render a claim patent-eligible, as not all
transformations or machine implementations infuse
an otherwise ineligible claim with an ‘inventive
concept.’”).
In any respect, we disagree with Solutran that
the claims pass the test. Solutran reads the analysis
in In re Bilski, 545 F.3d 943, 962–63 (Fed. Cir. 2008)

16a
(en banc), which the Supreme Court explicitly
declined to follow, as supporting its argument that
“scanning . . . paper checks with a digital-image
scanner to create images of the checks” alone passes
the machine-or-transformation test. See Appellant’s
Op. Br. at 65 (relying on discussion of In re Abele,
684 F.2d 902 (C.C.P.A. 1982) in In re Bilski, 545 F.3d
at 962–63).
Regardless of whether our Bilski
opinion’s analysis of Abele is still sound in view of
recent Supreme Court opinions, Solutran’s checkscanning argument directly conflicts with Content
Extraction.
Merely using a general-purpose
computer and scanner to perform conventional
activities in the way they always have, as the claims
do here, does not amount to an inventive concept.
See Content Extraction, 776 F.3d at 1348–49;
Ultramercial, 772 F.3d at 716–17.
Because the claims of the ’945 patent recite the
abstract idea of using data from a check to credit a
merchant’s account before scanning the check, and
because the claims do not contain an inventive
concept sufficient to transform this abstract idea
into a patent-eligible application, the claims are not
directed to patent-eligible subject matter under §
101. We therefore need not review U.S. Bank’s
alternative § 103 argument or Solutran’s crossappeal relating to a potential willful infringement
claim. We have considered the parties’ remaining
arguments
and
find
them
unpersuasive.
Accordingly, we reverse.
REVERSED

17a
APPENDIX B
United States District Court, D. Minnesota
SOLUTRAN, INC.,
Plaintiff,
v.
U.S. BANCORP and ELAVON, INC.,
Defendants.
U.S. BANCORP and ELAVON, INC.
Counter-claimants,
v.
SOLUTRAN, INC.
Counter-defendant.
Case No. 13–cv–2637 (SRN/BRT)
Signed 11/27/2017
David J. Wallace-Jackson, Robert J. Gilbertson, and
Sybil L. Dunlop, Greene Espel PLLP, 222 South
Ninth Street, Suite 2200, Minneapolis, Minnesota, for
Plaintiff and Counter-defendant.
Ben D. Kappelman, Kenneth E. Levitt, Peter M.
Lancaster, Dorsey & Whitney LLP, 50 South Sixth
Street, Suite 1500, Minneapolis, Minnesota 55402,
and J. Thomas Vitt, Jones Day, 90 South Seventh
Street, Suite 4950, Minneapolis, Minnesota 55402, for
Defendants and Counter-claimants.

18a
SUSAN RICHARD NELSON, United States District
Judge

I.

INTRODUCTION

This matter comes before the Court on the
parties’ cross-motions for summary judgment. (See
Pl.’s Mot. for Summ. J. [Doc. No. 183]; Defs.’ Mot. for
Summ. J. [Doc. No. 170].) For the reasons that follow,
Plaintiff’s motion is granted, and Defendants’ motion
is denied.

II. BACKGROUND
Plaintiff Solutran, Inc. (“Solutran”) is the owner
by assignment of United States Patent No. 8,311,945
(the “’945 Patent”), which claims a system and
method for processing check transactions.
(See
Compl. ¶ 10 [Doc. No. 1].) According to Solutran, its
system improves on legacy check processing systems
by eliminating the need for merchants to scan checks
after they are received, and by speeding the rate at
which the merchant’s account would be credited with
a payment. (See Pl.’s Opening Claim Construction Br.
at 4–6 [Doc. No. 78].) Solutran’s check processing
system is marketed as “Solutran’s POS [Point of Sale]
Imaging Network,” or “SPIN.” (See Compl. ¶ 9.)
On September 25, 2013, Solutran filed suit
against Defendants U.S. Bancorp and its subsidiary,
Elavon, Inc. (collectively, “US Bank”), alleging
infringement of the ’945 Patent. (See generally id.) In
particular, Solutran contends that US Bank’s
competing “Electronic Check Service,” or “ECS,”
system is practically identical to SPIN, and infringes
at least one of the claims of the ’945 Patent. (See
generally id.) US Bank has consistently denied any

19a
infringement and brings counterclaims in its own
right against Solutran, seeking declaratory judgments
of non-infringement and patent invalidity.
(See
generally Am. Answer [Doc. No. 17].)
In February 2014, US Bank petitioned for a
Covered Business Model (“CBM”) review of the ‘945
Patent before the U.S. Patent and Trademark Office’s
Patent Trial and Appeal Board (“PTAB”), arguing
that: (1) the patent was invalid under 35 U.S.C. § 101;
and (2) the patent’s claims were unpatentable under
35 U.S.C. § 103 as obvious. See US Bancorp v.
Solutran, Inc., No. CBM2014-00076, 2014 WL
3943913, at *1 (PTAB Aug. 7, 2014). The PTAB
rejected US Bank’s § 101 argument, but instituted the
CBM proceeding based on the § 103 argument. See
id. at *6–13. While the CBM review was underway,
this Court stayed proceedings in this district court
action. (See Sept. 18, 2014 Order to Stay [Doc. No.
50].) After the PTAB found that the challenged
claims in the ‘945 Patent were not unpatentable as
obvious, see US Bancorp v. Solutran, 2015 WL
4698463, at *10–16 (PTAB Aug. 5, 2015), aff’d, No.
2016-1302, 668 Fed. App’x 363 (Fed. Cir. 2016), this
Court lifted the stay. (See Jan. 12, 2016 Text-Only
Order [Doc. No. 62].)
Following extensive motion practice and
discovery, the Court heard the parties’ claim
construction arguments on August 30, 2016. (See
Aug. 30, 2016 Minute Entry [Doc. No. 87].) In total,
the parties asked the Court to construe eight different
terms found variously in claims 1, 2, 4, and 5 of the
’945 Patent. See Solutran, Inc. v. U.S. Bancorp, No.
13-cv-2637 (SRN/BRT), 2017 WL 2274959, at *2
(D. Minn. May 24, 2017). At this stage of the

20a
litigation, however, the application of only one of
those terms is disputed: “comparing by a computer
said digital images with said data in the data file to
find matches.”1 This term appears in claims 1(d), 4(e),
and 5(e) of the ’945 patent— for illustrative purposes,
and to provide needed context, the Court will
reproduce claim 1 in full here:

1.

A method
comprising:

for

processing

paper

checks,

a) electronically

receiving a data file
containing data captured at a merchant’s
point of purchase, said data including an
amount of a transaction associated with
MICR 2 information for each paper check,
and said data file not including images of
said checks;

b) after step a) crediting an account for the
merchant;

c) after step b), receiving said paper checks

and scanning said checks with a digital
image scanner thereby creating digital
images of said checks and, for each said
check, associating said digital image with
said check’s MICR information; and

d) comparing by a computer said digital
images with said data in the data file to
find matches.

(Compl., Ex A (“’945 Patent”) at 10:54-67 (emphasis
For simplicity, the Court will generally refer to this term as
the “comparing step” from this point on.
2 “MICR” stands for “magnetic ink character recognition.” See
Solutran, 2017 WL 2274959, at *13.
1

21a
added).)
The Court issued its claim construction order on
May 24, 2017. The parties responded by filing their
cross-motions for summary judgment the following
month. (See generally Pl.’s Mot. for Summ. J.; Defs.’
Mot. for Summ. J.) Solutran contends that the
undisputed record evidence shows that US Bank’s
ECS service practices “every single step” of claims 1,
2, 3, and 5 of the ’945 Patent. (See Pl.’s Mem. in
Supp. of Mot. for Summ. J. (“Pl.’s Mem. in Supp.”) at
1 [Doc. No. 185].)3 It notes that US Bank now argues
non-infringement solely on the basis of the comparing
step. (See id.) In its view, however, the Court’s
construction of this term resolves the issue in its
favor, and thus a judgment of infringement is
warranted here. (See id.) US Bank, however, argues
the opposite in its own motion—that the Court’s
construction makes clear that its service does not
infringe the ’945 Patent. (See Defs.’ Mem. in Supp. of
Mot. for Summ. J. (“Defs.’ Mem. in Supp.”) at 2 [Doc.
No. 172].) In the alternative, US Bank also contends
that all asserted claims are invalid because they are
too abstract to qualify for patent protection under 35
U.S.C. § 101. (See id.)
The Court heard oral argument on the parties’
motions on August 11, 2017, and the matter is now
ripe for disposition.

III. DISCUSSION
A. Standard of Review
Summary judgment is appropriate if “the movant
3

The Court’s citations refer to the parties’ original pagination
in their memoranda, as opposed to the ECF pagination.

22a
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). A fact is
“material” only if it may affect the outcome of the
lawsuit. TCF Nat’l Bank v. Mkt. Intelligence, Inc.,
812 F.3d 701, 707 (8th Cir. 2016). Likewise, an issue
of material fact is “genuine” only if “the evidence is
such that a reasonable jury could return a verdict for
the nonmoving party.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986). The moving party
bears the burden of establishing a lack of genuine
issue of fact, Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986), and the Court must view the evidence and
any reasonable inferences in the light most favorable
to the nonmoving party. Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 587 (1986). In
responding to a motion for summary judgment,
however, the nonmoving party may not rest on mere
allegations or denials, but must “demonstrate on the
record the existence of specific facts which create a
genuine issue for trial.” Krenik v. Cty. of Le Sueur, 47
F.3d 953, 957 (8th Cir. 1995).

B. The Issue of Infringement
A determination of infringement requires a twostep analysis. See Transclean Corp. v. Bridgewood
Servs., Inc., 290 F.3d 1364, 1370 (Fed. Cir. 2002).
First, the Court must determine the scope and
meaning of the patent claims asserted. See Phil-Insul
Corp. v. Airlite Plastics Co., 854 F.3d 1344, 1358 (Fed.
Cir. 2017). Second, the properly construed claims are
compared to the allegedly infringing device or process.
See id. Although the second inquiry is one of fact,
Transclean Corp., 290 F.3d at 1370, the Court may
decide infringement on summary judgment if there

23a
are no genuine issues of material fact requiring
determination at trial. See, e.g., 3M Co. v. Mohan,
No. 09-cv-1413 (ADM/FLN), 2010 WL 3200052, at *2
(D. Minn. Aug. 9, 2010) (“Courts routinely grant
summary judgment and find infringement as a matter
of law where there is no factual dispute on the
infringement question.”). Where, as here, “there is no
dispute regarding the operation of the accused
system[], [the] issue [of infringement] reduces to a
question of claim interpretation and is amenable to
summary judgment.” MyMail, Ltd. v. Am. Online,
Inc., 476 F.3d 1372, 1378 (Fed. Cir. 2007).
A patent is infringed if every limitation set forth
in a claim is present in an accused product or process,
either literally or through the doctrine of equivalents.
Deering Precision Instruments, L.L.C. v. Vector
Distrib. Sys., Inc., 347 F.3d 1314, 1324 (Fed. Cir.
2003). Because only literal infringement is alleged
here, Solutran bears the burden of proving that the
accused process contains each limitation of an
asserted claim. See id. Although at this point in the
proceedings, US Bank contends only that its process
does not meet the requirements of the ’945 Patent’s
comparing step, that step is a required element of all
asserted claims. See Hutchins v. Zoll Med. Corp., 492
F.3d 1377, 1382 (Fed. Cir. 2007) (citing 35 U.S.C. §
112, ¶ 4 (pre-AIA)) (noting that limitations in each
independent claim are incorporated into every
dependent
claim).
Accordingly,
Solutran’s
infringement argument rises or falls on the
application of that step to the accused process. See
Wolverine World Wide, Inc. v. Nike, Inc., 38 F.3d 1192,
1199 (Fed. Cir. 1994).

24a
1. The Court’s Construction
“Comparing Step”

of

the

The purpose of claim construction is “to arrive at
the true and consistent scope” of the claims.
Markman v. Westview Instruments, Inc., 52 F.3d 967,
979 (Fed. Cir. 1995), aff’d, 517 U.S. 370 (1996). A
claim term can have only correct meaning, see Linear
Tech. Corp. v. Monolithic Power Sys., Inc., No. 06-cv476 (GMS), 2007 WL 6126455, at
*2 n.2 (D. Del. Nov. 20, 2007), and in exercising
its duty to define that meaning, this Court endeavors
always to state its determination with clarity and
precision, “for the protection of the patentee [and the
benefit of the public].”
Markman v. Westview
Instruments, Inc., 517 U.S. 370, 390 (1996).
The parties’ submissions here, however, suggest
that the Court was not as clear in defining the
comparing step as it had originally intended. As
noted above, that step requires “comparing by a
computer said digital images with said data in the
data file to find matches.” One of the key disputed
points between the parties in interpreting this term
was whether the phrase “said data” necessarily
incorporated the definition of that phrase found in
claim 1(a),4 which provides in part for “electronically
receiving a data file containing data captured at a
merchant’s point of purchase, said data including an
amount of a transaction associated with MICR
information . . . .” (See ’945 Patent at 10:55-58
(emphasis added).) See Solutran, 2017 WL 2274959,
at *6. US Bank argued that the phrase must be
interpreted uniformly across the claims, and that its
4

As well as claims 4(a) and 5(a).

25a
explicit reference to the transaction amount meant
that the comparing step should be read as requiring
that the transaction amount be involved in any
comparison. See id. In contrast, Solutran argued
that the phrase could be left to its plain meaning, but
that in any event, US Bank’s interpretation was
improper. See id. The Court construed the term, and
there the matter rested for the moment. See id. at *68.
Now, however, the parties once again debate a
matter of interpretation—this time with regard to the
boundaries of the Court’s construction. (See Pl.’s
Mem. in Supp. at 9-19; Defs.’ Mem. in Opp’n to Pl.’s
Mot. for Summ. J. (“Defs.’ Mem. in Opp’n”) at 2-11
[Doc. No. 203].) Both parties agree on one thing: that
the Court made clear that the “said data” referenced
in the comparing step must include, at minimum, the
amount of the transaction. (See Pl.’s Mem. in Supp.
at 12; Defs.’ Mem. in Opp’n at 6-7.) Where they differ,
however, is whether the Court also meant to be
understood as requiring that the transaction amount
found in “said data” must be independently
considered as part of the comparing process. Because
the parties do not apparently dispute that US Bank’s
process relies on MICR information and not the
transaction amount in conducting its own comparison,
resolution of this issue is effectively dispositive of
Solutran’s infringement claim. (See, e.g., Defs.’ Mem.
in Opp’n at 17.)
Having carefully reviewed the parties’ arguments
on the matter, the Court clarifies its initial
construction of the comparing step as follows: (1) the
data captured at the merchant’s point of purchase
must include the transaction amount; (2) the

26a
transaction amount must be one of the elements of
the “said data” in the “data file,” the latter of which
must then be compared with the digital images; and
(3) the “match” being made as part of the comparison
step can involve, but need not necessarily involve, the
transaction amount. In other words, additional data
from the data file, such as MICR information, can
independently form the basis of the match for
purposes of claim 1(d), 4(e), and 5(e). While the
transaction amount must be in the “said data”
grouping, it need not be separately singled out and
directly compared against a similar datum in the
digital image.

2. Application of the Construction
In light of this updated—and, hopefully, clearer—
construction, the Court concludes that summary
judgment is warranted in favor of Solutran on the
issue of infringement. The parties do not contest that
US Bank’s process involves a comparison step that is
designed to match the digital image of the check with
data captured in a data file. (See, e.g., Defs.’ Mem. in
Opp’n at 9; Pl.’s Mem. in Supp. at 10.) Nor do they
contest that US Bank captures the transaction
amount as part of the data captured at the point of
purchase. (See, e.g., Defs.’ Mem. in Opp’n at 9.)
Although it is apparent that the accused process does
not rely on the transaction amount for purposes of
forming matches (rather, it uses MICR information),
that fact is not dispositive of infringement. In light of
the Court’s construction of claim 1(d), so long as US
Bank captures the transaction amount and makes a
match using some element (or elements) of the data in
the data set, then its process infringes upon that
claim. Here, this is exactly what the ECS system

27a
does.
As Defendants disputed infringement solely as to
the comparing step, and do not, apparently, contest
infringement as to all other steps of the asserted
claims, resolution of this matter in favor of Solutran
necessarily resolves the parties’ infringement dispute.
The Court accordingly grants Solutran’s motion for
summary judgment of infringement, and denies US
Bank’s corresponding motion for non-infringement.

C. Invalidity Under 35 U.S.C. § 101
US Bank alternatively argues that the ‘945
Patent is invalid under 35 U.S.C. § 101. It contends
that Solutran’s core claimed invention is an abstract
concept, and that Solutran has not added significantly
more to that abstract concept. (See Defs.’ Mem. in
Supp. at 12–25.) While the ‘945 Patent contains three
independent claims, the parties acknowledge that the
language in the other claims is similar or nearly
identical to the language in Claim 1. (See id. at 22;
Pl.’s Mem. in Opp’n at 15.) Because independent
Claim 1 is representative of the ‘945 Patent, the
analysis of this claim is representative of the other
two independent claims. See Intellectual Ventures,
LLC v. Erie Indem. Co.,
Fed. App’x , No. 20171147, 2017 WL 5041460, at * 2 (Fed. Cir. Nov. 3,
2017) (examining a representative claim for purposes
of § 101 analysis).
Section 101 provides that only “inventions” are
patent-eligible, and are granted to “[w]hoever invents
or discovers any new and useful process, machine,
manufacture, or composition of matter, or any new
and useful improvement thereof.” 35 U.S.C. § 101.
Addressing the language of § 101, the Supreme Court

28a
has stated, “In choosing such expansive terms . . .
modified by the comprehensive ‘any,’ Congress plainly
contemplated that the patent laws would be given
wide scope.” Bilski v. Kappos, 561 U.S. 593, 609
(2010) (quoting Diamond v. Chakrabarty, 447 U.S.
303, 308 (1980)).
The Federal Circuit advises that “[a] § 101
analysis begins by identifying whether an invention
fits within one of the four statutorily provided
categories of patent-eligible subject matter: processes,
machines, manufactures, and compositions of matter.”
Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 713–14
(Fed. Cir. 2014). Here, the invention at issue is
claimed to be a “process,” which falls within one of the
four statutory classes. Section 100(b) defines this
class, stating, “The term ‘process,’ means process, art
or method, and includes a new use of a known
process, machine, manufacture, composition of
matter, or material.” 35 U.S.C. § 100(b). The
Supreme Court has further stated that “[a] process is
a mode of treatment of certain materials to produce a
given result. It is an act, or a series of acts,
performed upon the subject-matter to be transformed
and reduced to a different state or thing. If new and
useful, it is just as patentable as is a piece of
machinery.” Diamond v. Diehr, 450 U.S. 175, 18
(1981) (citation omitted).
Despite § 101’s broad reading of patent eligibility,
the Supreme Court has long recognized three
“implicit exception[s]” to the subject matter of patents
for “laws of nature, natural phenomena, and abstract
ideas.” Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134 S.
Ct. 2347, 2354 (2014) (citing Assoc. for Molecular
Pathology v. Myriad Genetics, Inc., 569 U.S. 576, 133

29a
S. Ct. 2107, 2116 (2013)). A process that attempts to
patent an abstract idea is not patentable under § 101.
See Bilski, 561 U.S. at 609. The rationale for this
exclusionary principle lies in the concern that general
“building blocks of human ingenuity,” such as
abstract ideas, should not be limited for future
innovations. Alice, 134 S. Ct. at 2354. However,
courts should “tread carefully in construing this
exclusionary principle lest it swallow all of patent
law,” see id. at 2354, because “all inventions at some
level embody, use, reflect, rest upon, or apply laws of
nature, natural phenomena, or abstract ideas.” Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 566
U.S. 66, 71 (2012).
Courts apply a two-step test to challenges to the
eligibility of patent subject matter under § 101. See
id. at 79. First, courts must “determine whether the
claims at issue are directed to a patent-ineligible
concept.” Alice, 134 S. Ct. at 2355. If they are, courts
then examine the elements of the disputed claims to
determine whether they contain an inventive concept
that sufficiently “transform[s]” the abstract idea into
a patent-eligible application. Id. at 2357 (citing Mayo,
566 U.S. at 79).
Both steps of the Alice framework involve
“overlapping scrutiny of the content of the claims.”
Elec. Power Grp., LLC v. Alstom S.A., 1353 (Fed. Cir.
2016). But the Federal Circuit has observed that the
first step in the § 101 inquiry is a “meaningful one,”
given that “a substantial class of claims are not
directed to a patent-ineligible concept.” Enfish, LLC
v. Microsoft Corp., 822 F.3d 1327, 1335 (Fed. Cir.
2016).
Therefore, the step-one analysis may
sometimes resolve the § 101 inquiry. See Elec. Power,

30a
830 F.3d at 135. In other words, if the Court
determines that the challenged claim is not directed
to an abstract idea, it need not reach step two. Alice,
134 S. Ct. at 2355. However, if the Court finds
otherwise, it then moves to the second step,
examining the elements of the disputed claim to
determine whether the claim contains a sufficiently
transformative inventive concept so as to be patent
eligible. Id. (citing Mayo, 566 U.S. at 79).

1. Step One
US Bank argues that the ‘945 Patent specification
emphasizes either the “abstract idea of delaying and
outsourcing the scanning of paper checks” or the
single, abstract concept of converting a customer’s
check electronically and crediting the merchant’s
account prior to imaging the check. (See Defs.’ Mem.
in Supp. at 14, 21–23.) The Court finds that US
Bank’s characterization fails to consider the character
of the claims as a whole.
In conducting the “directed to” inquiry at step 1,
courts must not simply ask whether the claims
involve a patent-ineligible concept because, again, on
some level, all patent-eligible claims involving
physical products and actions involve laws of nature,
natural phenomena, or abstract ideas. Enfish, 822
F.3d at 1335 (citing Mayo, 566 U.S. at 71–72).
Rather, the “directed to” inquiry requires the Court to
consider whether, in light of the patent specification,
the character of the claim as a whole “is directed to
excluded subject matter.” Id. (citations omitted). US
Bank fails to do so. See Diehr, 450 U.S. at 188.
Rather,
as
Solutran
asserts,
US
Bank’s
characterization omits the physical processing of
checks from the point of sale to a different location,

31a
and in a particular sequence. (See Pl.’s Mem. in
Opp’n at 18–19.) In so doing, US Bank improperly
construes Claim 1 to “a high level of abstraction.”
Enfish, 822 F.3d at 1337.
The character of Claim 1, recited on page 4,
supra, is directed to a physical process for processing
paper checks in which data captured from a paper
check at the merchant’s point of purchase is used to
credit a merchant’s account, while the same paper
check is scanned at a later time and in a different
location to create an image of that check. Specifically,
in Claim 1(a), a data file is electronically captured
from a paper check at the merchant’s point of sale; in
1(b), the merchant’s account is credited; in 1(c), the
paper check is received, at a later time and place, and
scanned to create an image; and in 1(d), the files are
brought back together to compare digital images with
the data file to find matches. (See ‘945 Patent, Ex. A
to Ernstene Aff. at 10:54-67 [Doc. No. 187-1].)
When focusing on the claimed advance of the ‘945
Patent over the prior art—as the Federal Circuit
instructs courts to consider, see Affinity Labs of Tex.,
LLC v. DIRECTV, LLC, 838 F.3d 1253, 1257 (Fed.
Cir. 2016)—the ‘945 Patent purportedly improves
upon the prior art through the processing of paper
checks, via two-paths, at different times and
locations, and the physical movement of paper checks.
(See ‘945 Patent, Ex. A to Ernstene Aff. (Abstract))
(“The data files and image files are separated both in
time and in space, with the data files being used to
promptly initiate the transfer of funds to and from
appropriate accounts, while the paper checks, at a
remote location and typically lagging in time, are
scanned to create digital image files and deposited as

32a
an image or substitute check if deemed ACH
ineligible.”). This claimed advance is not directed to
an abstract idea. Additional language found in the
‘945 Patent emphasizes that the claimed invention is
rooted in an enhanced processing method and a
palpable application of that process, in a different
time and place. The “Summary of the Invention”
describes the processing of paper checks, along with
their physical transportation, (see id. at 4:6–18),
Figure 3 of the ‘945 Patent also depicts this physical
transfer and delivery with the image of a truck, (see
id. (Fig. 3)) (illustrating ‘945 Patent, 5:50–52), and
Figure 4 explains additional details of the process,
including the “divergent flows” for the point-of-sale
data, the physical checks, and images of the checks.
(See id. (Fig. 4)) (illustrating ‘945 Patent, 6:22–26).
In US Bank’s earlier, unsuccessful § 101
challenge before the PTAB, the Board found that US
Bank improperly focused on “each method step
individually without accounting sufficiently for the
claims as a whole.”5 US Bancorp, 2014 WL 3943913,
at *8. Examined as a whole, the PTAB found that
5

US Bank asserts that the PTAB’s earlier rejection of its § 101
challenge should not affect this Court’s present determination.
(See Defs.’ Mem. in Supp. at 26–27; Defs.’ Reply at 3 [Doc. No.
206].) Solutran concedes that “present law does not clearly
establish” that the doctrine of estoppel applies to bar US Bank
from reasserting its § 101 argument here. (See Pl.’s Mem. in
Opp’n at 8 & n.10 [Doc. No. 194].) While the Federal Circuit
has found that estoppel does not preclude the assertion of noninstituted grounds in a CBM or IPR proceeding, see, e.g., Credit
Acceptance Corp. v. Westlake Servs., 859 F.3d 1044, 1053 (Fed.
Cir. 2017), the Supreme Court has not considered this issue.
Accordingly, this Court does not assign preclusive effect to the
PTAB’s findings on § 101 validity. However, it finds the PTAB’s
guidance persuasive.

33a
the basic, core concept of Claim 1 is a method of
processing paper checks, “which is more akin to a
physical process than an abstract idea.”
Id.
Moreover, the Board found that “there is nothing
immediately apparent about this basic, core concept
that would indicate that it is directed to an abstract
idea at all.” Id. While the PTAB acknowledged that
Claim 1 recited some fundamental economic practices,
such as “crediting an account for a merchant,” it could
not “disembody such recitations from the claim
viewed as a whole.” Id. The PTAB pointed to other
substantive limitations in Claim 1—“receiving said
paper checks and scanning said checks with a digital
scanner” and “comparing by a computer said digital
images”— that narrow the claim. Id.
While there is no definitive test to determine
what constitutes an “abstract idea,” courts frequently
compare the challenged claims “to those claims
already found to be directed to an abstract idea in
previous cases.” Enfish, 822 F.3d at 1334 (citing
Alice, 134 S. Ct. at 2357). In Bilski, 561 U.S. at 609–
12, the Supreme Court cited as “guideposts” three
abstract-idea decisions involving patented processes:
Gottschalk v. Benson, 409 U.S. 63 (1972); Parker v.
Flook, 437 U.S. 564 (1978); and Diehr, 450 U.S. at
175. It noted that in Gottschalk, 409 U.S. at 67, an
algorithm used to convert binary-coded decimal
numerals into pure binary code was not a patent
eligible process under § 101, and any contrary
conclusion “would wholly pre-empt the mathematical
formula and in practical effect would be a patent on
the algorithm itself.” Bilski, 561 U.S. at 609–10
(quoting Gottschalk, 409 U.S. at 72). In Flook, 437
U.S. at 585–86, the Supreme Court evaluated the §
101 eligibility of a patent for monitoring the

34a
conditions during the catalytic conversion process in
the petrochemical and oil-refining industries. The
Court held that the bar against patenting abstract
ideas “cannot be circumvented by attempting to limit
the use of the formula to a particular
technological environment” or adding “insignificant
postsolution activity.”
Bilski, 561 U.S. at 610
(quoting Diehr, 450 U.S. at 191–92). Finally, in
Diehr, 450 U.S. at 177, the Court held that a new
process for curing synthetic rubber, involving the use
of a mathematical formula in several of the steps,
completed by a computer, was not an abstract idea.
The Court underscored the importance of considering
the invention as a whole, and stated that although an
abstract idea is not patent eligible, “an application of
a law of nature or mathematical formula to a known
structure or process may well be deserving of patent
protection.” Id. at 187–88.
Relying on this precedent, the Court in Bilski
held that a patent claiming a general method for
hedging risk in the energy commodities market was
abstract, and therefore not patent-eligible under §
101. 561 U.S. at 611. The Court found that hedging
is a “fundamental economic practice long prevalent in
our system of commerce and taught in any
introductory finance class,” and it “is an unpatentable
abstract idea, just like the algorithms at issue in
[Gottschalk] and Flook.” Id. at 611–12.
The PTAB considered this precedent in US Bank’s
petition for CBM review, finding the ‘945 patent’s
claims unlike the fundamental economic practices in
Alice and Bilski, the mathematical formulas in Flook,
or the basic tools of scientific and technological work
in Gottschalk. US Bancorp, 2014 WL 3943913, at *8.

35a
US Bank suggests that the PTAB failed to adequately
consider the then-recent Alice decision, and failed to
solicit any briefing from the parties on the effect of
that case. (See Defs.’ Mem. in Opp’n at 26; Defs.’
Reply at 3.) But the PTAB’s ruling cites Alice several
times and follows the two-step procedure that Alice
and Mayo prescribe. See U.S. Bancorp, 2014 WL
3943913, at *6–8.
US Bank also asserts that two cases involving
check-related patents provide sufficient bases for
invalidating the ‘945 Patent. (Def.’s Mem. in Supp. at
13) (citing Content Extraction & Transmission LLC v.
Wells Fargo Bank, N.A., 776 F.3d 1343, 1347 (Fed.
Cir. 2014); Fidelity Nat’l Servs. v. DataTreasury
Corp., CBM 2014-00020, 2015 WL 1967327, at *5–6
(PTAB April 29, 2015), aff’d 669 Fed. App’x 572 (Fed.
Cir. 2016)). Content Extraction involved a claim
directed to a computerized technique that recognized
data in scanned documents and stored that data in
appropriate data fields in a computer. 776 F.3d at
1345. But unlike here, the claimed advance was not
based on when or how the hard copy documents were
scanned, manipulated, or transported— instead, the
claimed advance was simply in the computer
recognition process.
DataTreasury is similarly
inapplicable, because the patent owner did not assert
that the claimed advance was something more than
the encrypted transferring of information, and instead
argued that the presence of a tangible object
precluded a finding that the claim was directed to an
abstract idea. 2015 WL 1967327, at *10. Here,
however, Claim 1 is directed to an improved
technique for processing physical checks that
emphasizes
both
the
processing
and
the

36a
transportation of the checks.6
US Bank also cites authority for the proposition
that patents involving computer functions are
frequently found to be abstract at step one. (See
Defs.’ Mem. in Supp. at 19) (citing Apple, Inc. v.
Ameranth, Inc., 842 F.3d 1229, 1240 (Fed. Cir. 2016)
(generating a second computer menu from a first
menu and sending it elsewhere); Elec. Power, 830
F.3d at 1353–54 (using a “process of gathering and
analyzing information of a specified content, then
displaying the results”); Versata Dev. Grp., Inc. v.
SAP Am., Inc., 793 F.3d 1306, 1333 (Fed. Cir. 2015)
(using organizational and product group hierarchies
to determine price); Internet Patents Corp. v. Active
Network, Inc., 790 F.3d 1343, 1348 (Fed. Cir. 2015)
(retaining information from the navigation of online
forms); Content Extraction, 776 F.3d at 1347
(collecting data, recognizing certain data from the
collected group, and storing recognized data)). The
Court does not dispute this general observation. But
while the ‘945 patent’s claims may involve the use of
scanning or imaging devices as part of the patented
process, the patent does not claim advances over the
prior art based on the processing, gathering, or
manipulation of data via computer. See RecogniCorp,
LLC v. Nintendo Co., Ltd., 855 F.3d 1322, 1327 (Fed.
Cir. 2017) (finding a process that began with data,
added an algorithm, and ended with data in a new
form was directed to an abstract idea).
6

Moreover, DataTreasury was decided by the PTAB only four
months prior to the PTAB’s ruling on US Bank’s petition. As
Solutran observes, DataTreasury lacks persuasive authority,
“given that the PTAB also considered and rejected the same
type of section 101 challenge to the ‘945 Patent itself.” (Pl.’s
Mem. in Opp’n at 22.)

37a
The Court similarly finds inapposite US Bank’s
authority regarding the abstract character of claims
for fundamental economic practices, (see Defs.’ Mem.
in Supp. at 23) (citing Alice, 134 S. Ct. at 2356),
methods of organizing human activity (see id.) (citing
Planet Bingo LLC v. VKGS LLC, 576 F. App’x 1005,
1007–08 (Fed. Cir. 2014), and mental processes. (See
id.) (citing CyberSource Corp. v. Decisions, Inc., 654
F.3d 1366, 1371 (Fed. Cir. 2011)). As noted, the Court
agrees with the PTAB that simply because individual
elements of Claim 1 recite isolated, fundamental
economic practices, such as “crediting an account for a
merchant,” when viewed as a whole, the claim’s
limitations demonstrate that the claim is not directed
to an abstract concept. See US Bancorp, 2014 WL
3943913, at *8. Neither is the core concept of Claim 1
a method of organizing human activity similar to the
commercial practice of hedging in Alice, nor is it a
mental process that can be performed by human
thought alone, like the method claim in CyberSource
for verifying the validity of a credit card transaction
over the internet. Rather, the character of Claim 1 is
directed to a physical process for processing paper
checks that captures data from a paper check at the
merchant’s point of purchase, and uses the data to
credit a merchant’s account, while the same paper
check is later scanned in a different location to create
an image of that check.
Because the Court finds that Claim 1 of the ‘945
Patent is not directed to an abstract idea, it need not
examine the claim under step two. However, even if
Claim 1 were directed to an abstract idea, it would
nevertheless satisfy the second step of the Mayo/Alice
analysis.

38a
2. Step Two
Again, at the second step of the analysis, courts
consider whether the challenged claim contains an
“inventive concept” that transforms the abstract
concept into a patentable claim under § 101. Courts
examine whether the limitations in the claim
represent a patent-eligible application of the abstract
idea. See Alice, 134 S. Ct. at 2357. Elements of a
claim that consist of merely routine data gathering or
involve a general computer function or activity do not
meet this standard. OIP Techs., Inc. v. Amazon.com,
Inc., 788 F.3d 1359, 1363 (Fed. Cir. 2015). Nor do
claims that are limited to a specific technological
environment. See Elec. Power, 830 F.3d at 1354.
However, claims that involve a “specific, discrete
implementation” of an abstract concept have been
found to be sufficiently inventive, even if none of the
individual claim limitations are inventive when
considered separately. See Bascom Global Internet
Servs. v. AT & T Mobility LLC, 827 F.3d 1341, 1350
(Fed. Cir. 2016).
US Bank contends that Solutran’s claimed
invention is “nothing more than a trivial application
of computers and scanning equipment to conventional
check processing.” (See Defs.’ Mem. in Supp. at 15,
20.) But “new steps in a process may be patentable
even though all the constituents of the combination
were well known and in common use before the
combination was made.” Diehr, 450 U.S. at 188.
While US Bank argues that component parts of the
claimed invention were known conventions, (see Defs.’
Reply at 13), it fails to consider the ordered
combination of the elements in Claim 1, focusing
instead on the individual elements. Nor does it argue

39a
that these combined elements were a known
convention. Rather, as Solutran notes, “Claim 1’s
elements describe a new combination of steps, in an
ordered sequence, that was never found before in the
prior art and has been found to be a non-obvious
improvement over the prior art by both the USPTO
examiner and the PTAB’s three-judge panel (affirmed
by the Federal Circuit).” (Pl’s Mem. in Opp’n at 27.)
The ordered combination captures data from a paper
check at the merchant’s point of sale in order to credit
the merchant’s account, while the same check is later
scanned at a different location to create an image.
The image and the data are then reunited and
compared to find matches. While US Bank asserts
that the claim fails to recite that the checks are
“transported,” (see Defs.’ Reply at 13), Claim 1(c)
indicates that the paper checks are “receiv[ed].” This
Court previously construed “receiving said paper
checks” as “the paper checks are received from a
location different from where the checks are scanned”
in its claim construction ruling, see Solutran, 2017
WL 2274959, at *5. This construction sufficiently
conveys that the checks are moved from one location
to another.
Specifically with respect to patented “processes”
under § 101, one means by which courts evaluate
their patent eligibility is the “machine-ortransformation test.” See Bilski, 561 U.S. at 602–03.
Under this test, a claimed invention is not deemed
patentable if it is not tied to a machine and does not
transform an article. Id. The Supreme Court has
held that this is not the sole means by which to decide
whether an invention is a patent-eligible process, but
it is “a useful and important clue, an investigative
tool.” Id. at 604.

40a
The Court agrees with Solutran that the ‘945
Patent’s claims pass the machine-or-transformation
test. As Solutran explains, “the physical paper check
is transformed into a different state or thing, namely
into a digital image.” (Pl.’s Mem. in Opp’n at 29.) In
Bilski, the Federal Circuit stated that the
transformation of raw, physical data, into a visual
depiction of that object satisfies the transformation
part of the machine-or-transformation test. 545 F.3d
at 962–63. Moreover, the transformation here is
“central to the purpose of the claimed process,” id. at
962, and “impose[s] a meaningful limit on the scope of
the claim.” Versata Dev., 793 F.3d at 1335. Solutran
explains that receiving and scanning paper checks
after they have been moved from the merchant’s point
of sale is central to the purpose of the ‘945 Patent: “If
this step (c) were removed from the claims, then step
(d) would be incomprehensible and steps (a) and
(b) would merely describe relatively routine practices
found in [point of purchase] check transactions. Step
therefore is not ‘mere data gathering’ or ‘routine, postsolution activity,’ but imposes a meaningful limit on
the claimed process.” (Pl.’s Mem. in Opp’n at 30–31.)
The Court therefore finds that even if it reaches step
2 in the analysis, the elements of Claim 1 contain a
sufficiently transformative inventive concept so as to
be patent eligible.
Accordingly, for all of the reasons set forth above,
the Court finds that the claims of the ‘945 Patent are
not abstract, but rather, are patent eligible under §
101.
Defendant’s summary judgment motion is
therefore denied on this basis as well.

41a
THEREFORE, IT IS HEREBY ORDERED THAT:

1. Plaintiff’s Motion for Summary Judgment
[Doc. No. 183] is GRANTED; and

2. Defendants’ Motion for Summary Judgment
[Doc. No. 170] is DENIED; and

3. The remaining issues are set for trial on
March 6, 2018. A pretrial order will follow.

42a
APPENDIX C
United States Court of Appeals for the Federal
Circuit
SOLUTRAN, INC.,
Plaintiff-Cross-Appellant
v.
ELAVON, INC., U.S. BANCORP,
Defendants-Appellants
2019-1345, 2019-1460
Appeals from the United States District Court for
the District of Minnesota in No. 0:13-cv-02637-SRNBRT, Judge Susan Richard Nelson.
ON PETITION FOR REHEARING EN BANC

Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit
Judges.
PER CURIAM.
ORDER
Cross-Appellant Solutran, Inc. filed a petition for
re-hearing en banc. The petition was first referred as
a petition for rehearing to the panel that heard the
appeal, and thereafter the petition for rehearing en

43a
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied. The
petition for rehearing en banc is denied.
The mandate of the court will issue on October 8,
2019.
FOR THE COURT
October 1, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

44a
APPENDIX D
United States Patent and Trademark Office

BEFORE THE PATENT TRIAL AND APPEAL
BOARD

U.S. BANCORP, Petitioner,
v.
SOLUTRAN, INC.,
Patent Owner.

Case CBM2014-00076
Patent 8,311,945 B2
August 7, 2014

Before MICHAEL W. KIM, BEVERLY M. BUNTING,
and PATRICK M. BOUCHER, Administrative Patent
Judges.
BUNTING, Administrative Patent Judge.
DECISION
Institution of Covered Business Method Patent
Review
37 C.F.R. § 42.208

45a
I.

INTRODUCTION

U.S. Bancorp (“Petitioner”) filed a Petition (Paper
1, “Pet.”) on February 19, 2014, requesting a covered
business method patent review of claims 1–6 of U.S.
Patent No. 8,311,945 B2 (Ex. 1002, “the ’945
patent”). Solutran, Inc. (“Patent Owner”) filed a
Patent Owner’s Preliminary Response (Paper 15,
“Prelim. Resp.”) on May 27, 2014.
We have
1
jurisdiction under 35 U.S.C. § 324.

II.

BACKGROUND

The standard for instituting a covered business
method patent review is set forth in 35 U.S.C. §
324(a), which provides as follows:
THRESHOLD. – The Director may not authorize a
post-grant review to be instituted unless the Director
determines that the information presented in the
petition filed under section 321, if such information is
not rebutted, would demonstrate that it is more
likely than not that at least 1 of the claims
challenged in the petition is unpatentable.
35 U.S.C. § 324(a).
Petitioner challenges the
patentability of claims 1–6 (i.e., “the challenged
claims”) under 35 U.S.C. § 101 and 35 U.S.C. §
103(a).
Pet. 10.
Upon consideration of the
information presented in the Petition and Patent
Owner’s Preliminary Response, we determine that
1

See section 18(a) of the Leahy-Smith America Invents Act,
Pub. L. No. 112-29, 125 Stat. 284, 329 (2011) (“AIA”).

46a
Petitioner has demonstrated that it is more likely
than not that the challenged claims are
unpatentable. Pursuant to 35 U.S.C. § 324 and
section 18(a) of the AIA, we institute a covered
business method patent review as to claims 1–6 of
the ’945 patent on the grounds identified in the
Order of this decision.
A.

Related Proceedings

Petitioner asserts that the ’945 patent is the
subject of the following judicial matter: Solutran, Inc.
v. U.S. Bancorp and Elavon, Inc., Case No. 13-cv2637, (D. Minn), filed September 25, 2013. Pet. 74.
B.

The ’945 Patent (Ex. 1002)

The ’945 patent is directed to a system and
method for processing paper checks and check
transactions, in which check data is captured at
point of sale and later a check image is captured
remotely for subsequent matching of the check image
with the check data. Ex. 1002, 1:13–17. Processing
of the paper check entails transferring the check data
independent of the check image, resulting in debiting
of a consumer account and crediting of a merchant
account prior to scanning and creating the check
image (id. at 4:30–34) as shown in Figure 3
reproduced below:

47a

FIG. 3 illustrates the method of processing a check
between a consumer and merchant using a third
party processor.
Specifically, check data is captured at a point of
purchase, and “is used to promptly process a deposit
to the merchant’s account via a third party payment
processor” (“TPPP”). Id. at 3:18–20. After the TPPP
receives the check data, if determined to be eligible
for processing via the Automated Clearing House
(ACH), the check data passes “through the ACH
network for processing and appropriate debiting of
the consumer’s account 42 and … crediting the
merchant’s account 44.” Id. at 5:37–42. Separately
and subsequently, the paper check is transported
physically from the merchant to the TPPP for
scanning to create a check image that is stored in a
digital image file. Id. at 3:23–28; 5:47–58.
C.

Illustrative Claim

Petitioner challenges claims 1–6 of the ’945

48a
patent. Of the challenged claims, claims 1, 4, and 5
are independent, and all are directed to a method for
processing paper checks. Claim 1 is illustrative:

1. A method for processing paper checks,

comprising:

a) electronically receiving a data file containing

data captured at a merchant’s point of purchase, said
data including an amount of a transaction associated
with MICR information for each paper check, and
said data file not including images of said checks;

b)

for the merchant;

after step a), crediting an account

c)
after step b), receiving said paper
checks and scanning said checks with a digital image
scanner thereby creating digital images of said
checks and, for each said check, associating said
digital image with said check’s MICR information;
and
d) comparing by a computer said digital images,

with said data in the data file to find matches.
D.

Prior Art

Petitioner relies on the following prior art
references (Pet. 6):

49a
Reference Patents/Printed Date
(s)
Publications
Figure 2 of
the
’945 patent
Randle

E.

Exhibit

Figure 2 of U.S.
January 1002
Patent Number
30,
8,311,945 B2
2006
U.S. Patent
March
1012
Publication No. US 31,
2005/0071283 A1 2005

Asserted Grounds

Petitioner challenges claims 1–6 of the ’945
patent based on the following statutory grounds.
Pet. 10.
Claims
Challenged

Basis

Reference(s)

1–6

§ 101

None

1–6

§ 103(a)

Figure 2 of the ’945
patent and Randle

III.

ANALYSIS

A. Standing to Seek Covered Business Method
Patent Review

A “‘covered business method patent’” is one that
“claims a method or corresponding apparatus for
performing data processing or other operations used
in the practice, administration, or management of a
financial product or service, except that the term
does not include patents for technological

50a
inventions.” AIA § 18(d)(1); see also 37 C.F.R. §
42.301(a) (2013). For the following reasons, we
conclude the ’945 patent meets the definition of a
“[c]overed business method patent,” and Petitioner
has standing to file a petition for a covered business
method patent review. See 37 C.F.R. § 42.301(a).
1.

Petitioner Has Been Sued for Infringement of the
’945 Patent

As discussed above in Section II-A, Petitioner
represents it has been sued for infringement of the
’945 patent. Pet. 74.
2.

Claims 1–6 Are Directed to a Financial Product
or Service

The legislative history of the AIA “explains that
the definition of covered business method patent was
drafted to encompass patents ‘claiming activities that
are financial in nature, incidental to a financial
activity or complementary to a financial activity.’”
Transitional Program for Covered Business Method
Patents—Definitions of Covered Business Method
Patent and Technological Invention, 77 Fed. Reg.
48,734, 48,735 (Aug. 14, 2012) (quoting 157 Cong.
Rec. S5432 (daily ed. Sept. 8, 2011)). For purposes of
determining whether a patent is eligible for covered
business method patent review, we focus on the
claims. See id. at 48,736 (responses to comments 4
and 8). A patent need have only one claim directed
to a covered business method to be eligible for
covered business method patent review. See id. In
this case, we focus on claim 1 of the ’945 patent.
Claim 1 of the ’945 patent recites a method for
processing paper checks.
Ex. 1002, 10:54–67.

51a
Petitioner asserts that the processing of a paper
check “clearly encompass[es] activities that are
financial in nature.” Pet. 15. Moreover, the claim
limitation of “crediting an account for the merchant”
is an activity that is financial in nature. On these
facts, we are persuaded that claim 1 satisfies the
“financial product or service” component of the
definition set forth in § 18(d)(1) of the AIA.
3.

Exclusion for Technological Inventions

The definition of “‘covered business method
patent’” expressly excludes “patents for technological
inventions.” AIA § 18(d)(1); see also 37 C.F.R. §
42.301(a) (2013). To determine whether a patent is
for a technological invention, we consider on a caseby-case basis “whether the claimed subject matter as
a whole recites a technological feature that is novel
and unobvious over the prior art; and solves a
technical problem using a technical solution.” 37
C.F.R. § 42.301(b) (2013).2
Petitioner contends that the claims of the ’945
patent fail to disclose a technological invention
because the claims include “only known generic
hardware devices used in known ways and fail to
include a technological feature that is novel and
unobvious over the prior art.” Pet. 16–20. For
example, Petitioner points to the claim features of
“‘electronically receiving a data file’; ‘scanning checks
with a digital image scanner thereby creating digital
images of said checks’; and ‘comparing by a computer
said digital images, with said data in the data file to
2

For additional examples of “technological inventions” see
Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756,
48,763–64 (Aug. 14, 2012).

52a
find matches.’” Id. at 17, citing Ex. 1002 10:55–67.
Moreover, Petitioner contends that because the
claims of the ’945 patent do not contain a novel and
unobvious technological feature, the claims do not
solve a technical problem using a technical solution.
Id. at 20–22. Patent Owner, in its Preliminary
Response, does not dispute Petitioner’s standing to
seek covered business method patent review.
We agree with Petitioner that the ’945 patent is
not directed to a technological invention within the
meaning of 37 C.F.R. § 42.301(b), because checks,
digital image scanners, and computers were known
technologies in the prior art before the effective filing
date of the ’945 patent in 2006. In this context, we
identify no limitation of claim 1 that represents a
technological feature that is novel or unobvious over
the prior art.
4.

Conclusion

Based on the above, we are persuaded that the
’945 patent is eligible for covered business method
patent review.

B. Claim Interpretation
As a step in our analysis of whether to institute a
review, we determine the meaning of the claims for
purposes of this decision. In a covered business
method review, “[a] claim in an unexpired patent
shall be given its broadest reasonable construction in
light of the specification of the patent in which it
appears.” 37 C.F.R. § 42.100(b); see Office Patent
Trial Practice Guide, 77 Fed. Reg. 48,756, 48,764–66,
(Aug. 14, 2012) (Claim Construction); In re Am. Acad.
of Sci. Tech. Ctr., 367 F.3d 1359, 1364 (Fed. Cir.

53a
2004). Under the broadest reasonable interpretation
standard, claim terms generally are given their
ordinary and customary meaning, as would be
understood by one of ordinary skill in the art in the
context of the entire disclosure. See In re Translogic
Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
Any special definition for a claim term must be set
forth in the specification “with reasonable clarity,
deliberateness, and precision.” In re Paulsen, 30
F.3d 1475, 1480 (Fed. Cir. 1994).
Petitioner proposes express construction of
several claim terms. Pet. 13. However, Petitioner
does not indicate how these claim interpretations are
relevant to the proposed grounds of unpatentability
set forth in the instant proceeding. Patent Owner
does not address Petitioner’s proposed claim
construction; however, Patent Owner does proffer
specific constructions for several claim terms, and
points to the corresponding description from the
Specification in support thereof. Prelim. Resp. 14–
19. Like Petitioner, however, Patent Owner does not
indicate how these claim interpretations are relevant
to the proposed grounds of unpatentability set forth
in the instant proceeding.
Having considered both Petitioner’s and Patent
Owner’s proposed claim interpretations, we see no
need to provide any express claim constructions at
this time.

C. Non-Statutory Subject Matter
Petitioner challenges generally each claim of the
’945 patent as failing to recite patentable subject
matter under 35 U.S.C. § 101 because they fall
within the judicially created exception encompassing

54a
“abstract ideas or mental processes.” Pet. 25–44. In
the Preliminary Response, Patent Owner does not
dispute Petitioner’s challenge of the claims of the
’945 patent based on 35 U.S.C. § 101. On the
arguments and evidence presented, we are not
persuaded that the challenged claims are directed to
non-statutory subject matter.
Our analysis begins with the statute. 35 U.S.C. §
101 provides that a new and useful “process,
machine, manufacture, or composition of matter” is
eligible for patent protection. The Supreme Court
has made clear that the test for patent eligibility
under Section 101 is not amenable to bright-line
categorical rules. See Bilski v. Kappos, 561 U.S. 593,
572–73 (2010). As Petitioner indicates, there are
three limited, judicially-created exceptions to the
broad categories of patent-eligible subject matter in §
101: Laws of nature; natural phenomena; and
abstract ideas. Pet. 23; see Mayo Collaborative Servs.
v. Prometheus Labs., Inc., 132 S. Ct. 1289, 1293
(2012).
More recently, in Alice Corporation Pty, Ltd. v.
CLS Bank International, 134 S. Ct. 2347, 2355
(2014), the Supreme Court reiterated the framework
set forth previously in Mayo, “for distinguishing
patents that claim laws of nature, natural
phenomena, and abstract ideas from those that claim
patent-eligible applications of [these] concepts.”
Under Alice, the first step of such analysis is to
“determine whether the claims at issue are directed
to one of those patent-ineligible concepts.” Id. If
determined that the claims are directed to a patentineligible concept, the second step in the analysis is
to consider the elements of the claims “individually

55a
and ‘as an ordered combination’” to determine
whether there are additional elements that
“‘transform the nature of the claim’ into a patenteligible application.” Id. (quoting Mayo, 132 S. Ct. at
1297–8). In other words, the second step is to “search
for an ‘inventive concept’—i.e., an element or
combination of elements that is ‘sufficient to ensure
that the patent in practice amounts to significantly
more than a patent upon the [ineligible concept]
itself.” Id. (brackets in original) (quoting Mayo, 132
S. Ct. at 1294).
In the first step of determining whether a claim is
directed to a patent-ineligible concept, the Supreme
Court consistently begins its analysis by distilling
the claim down to its basic, core concept. See Alice
Corporation Pty, Ltd. v. CLS Bank International, 134
S. Ct. at 2356 (“On their face, the claims before us
are drawn to the concept of intermediated
settlement, i.e., the use of a third party to mitigate
settlement risk”); Bilski v. Kappos, 130 S. Ct. at 3231
(“Claims 1 and 4 in petitioners’ application explain
the basic concept of hedging, or protecting against
risk”); Diamond v. Diehr, 450 U.S. 175, 184 (1981)
(“Analyzing respondents' claims according to the
above statements from our cases, we think that a
physical and chemical process for molding precision
synthetic rubber products falls within the § 101
categories of possibly patentable subject matter”);
Parker v. Flook, 437 U.S. 584, 594-595 (1978)
(“Respondent’s application simply provides a new
and presumably better method for calculating alarm
limit values”); and Gottschalk v. Benson, 409 U.S. 63,
64 (1972) (“They claimed a method for converting
binary-coded decimal (BCD) numerals into pure
binary numerals”).

56a
After determining the basic, core concept, the
Supreme Court then considers where the determined
basic, core concept falls within a spectrum that
extends from “abstract ideas” at one end to
“technological processes” at the other. Claims that
fall towards the abstract-idea end are generally not
directed to patent-eligible subject matter under §
101, while those that fall towards the technologicalprocess end are generally patent-eligible. Compare
Alice Corporation Pty, Ltd. v. CLS Bank
International, 134 S. Ct. at 2356 with Diamond v.
Diehr, 450 U.S. at 184. See also Gottschalk v. Benson,
409 U.S. at 64 (“They claimed a method for
converting binary-coded decimal (BCD) numerals
into pure binary numerals. The claims were not
limited to any particular art or technology, to any
particular apparatus or machinery, or to any
particular end use”).
The Supreme Court has
determined that the abstract-idea end of the
spectrum includes fundamental economic practices,
Alice Corp. Pty., Ltd. v. CLS Bank Int’l, at 2357,
Bilski v. Kappos, 130 S. Ct. at 3231; mathematical
formulas, Parker v. Flook, 437 U.S. at 594-595; and
basic tools of scientific and technological work,
Gottschalk v. Benson, 409 U.S. at 69. On the
opposite technological-process end of the spectrum
are physical and chemical processes, such as curing
rubber, Diamond v. Diehr, 450 U.S. at 184, “tanning,
dyeing, making waterproof cloth, vulcanizing India
rubber, smelting ores,” and a process for
manufacturing flour. See Gottschalk v. Benson, 409
U.S. at 69 (internal citations omitted).
1.

Claims 1–3 and 6
Turning to the claims, Petitioner argues generally

57a
that the claim limitation of “shifting the step of
scanning checks with a digital scanner from a
merchant to another entity in a NACHA regulated
back office conversion process” is an abstract idea,
because it is not associated with any technological
improvement in scanning, nor accompanied by any
other limitation that would make the claim anything
other than an abstract idea. Pet. 26. In particular,
Petitioner argues “[o]ther than the claimed idea of a
non-merchant entity performing check scanning,
claim 1 includes nothing but mental process steps,
insignificant extra-solution activity, and conventional
computer hardware components for performing basic
computer functions.”
Id. at 28.
According to
Petitioner, this abstract idea of the non-merchant
entity performing the scanning is not made
patentable “by the addition of ‘well-understood,
routine, conventional activity.’” Id., citing Mayo 132
S. Ct. at 1298. Further, Petitioner argues that the
limitation requiring that step (c) be performed after
the merchant’s account is credited, represents “a
disembodied abstract idea that is not patentable.”
Pet. 32. With regards to claims 2, 3, and 6, all of
which depend from claim 1 and include additional
limitations, Petitioner characterizes these additional
limitations as “insignificant post-solution activity.”
Pet. 33–35.
In determining whether a method or process
claim recites an abstract idea, we must examine the
claim as a whole. Alice Corp. Pty., Ltd. v. CLS Bank
Int’l, at 2361, n. 3.
On the record before us,
Petitioner’s arguments are not persuasive because
they are directed to each method step individually
without accounting sufficiently for the claims as a
whole.
For when we mirror the first step of

58a
determining whether a claim is directed to a patentineligible concept, as set forth above, we find that the
basic, core concept of independent claim 1 is a
method of processing paper checks, which is more
akin to a physical process than an abstract idea.
Indeed, there is nothing immediately apparent about
this basic, core concept that would indicate that it is
directed to an abstract idea at all.
In reaching our determination, we are mindful of
the Supreme Court’s implicit caution to maintain
focus on the basic, core concept of the claim,
particularly when the claim is dressed in
technological language. Most instructive in this
regard is Parker v. Flook, where the claim’s preamble
indicated that the claim’s basic, core concept was
ostensibly directed to a chemical process involving
catalytic conversion of hydrocarbons. Id. at 594-595.
The Supreme Court found, however, that when more
closely scrutinized, the claim’s basic, core concept
was
actually
calculating
alarm
limits—a
mathematical algorithm, not a chemical process.
In further considering independent claim 1, we
recognize that some fundamental economic practices
are recited, such as “crediting an account for a
merchant.” But application of the Supreme Court’s
test cannot disembody such recitations from the
claim viewed as a whole—including its recitation of
other limitations such as “receiving said paper
checks and scanning said checks with a digital
scanner” and “comparing by a computer said digital
images.”
These are not fundamental economic
practices, mathematical algorithms, or basic tools of
scientific and technological work. The presence of
isolated limitations that recite fundamental economic

59a
practices do not persuade us that the basic, core
concept of independent claim 1—when all its
limitations are considered collectively—is anything
other than processing paper checks. Our analysis is
no different for claims 2-3 and 6.
Given our determination that claims 1–3, and 6
are not directed to the patent-ineligible concept of an
abstract idea, we need not consider the second step of
whether the challenged claims lack an inventive
concept.
Petitioner also argues that the challenged claims
are unpatentable using the rationale provided by the
preemption test. Pet. 37-39. Because we have
determined that the challenged claims are not
directed to a patent-ineligible abstract idea, we need
not proceed with the preemption analysis for the
reasons provided above. See Accenture, 728 F.3d at
1341.
2.

Claims 4 and 5

Petitioner argues that independent claims 4 and 5
are similar to claim 1, and are likewise unpatentable
because they recite an abstract idea. Pet. 39–44.
Petitioner characterizes the additional recitations in
claim 4 as “routine, post-solution activities associated
with handling ACH and non-ACH presentment.” Id.
at 40–-41. With respect to claim 5, Petitioner argues
that the additional recitations regarding the receipt
of data from multiple merchants does not impart the
necessary subject matter that is missing from claim 1
to make the claim patent eligible. Id. at 43.

60a
Petitioner’s arguments regarding claims 4 and 5
are likewise unpersuasive, because they are directed
to each method step individually, and do not account
sufficiently for the claims as a whole. Moreover, our
own independent analysis does not dissuade us from
the notion that the basic, core concept of claims 4 and
5 is processing paper checks, which is not an abstract
idea for the reasons discussed above. On the present
record, we determine that claims 4 and 5 are not
directed to the patent-ineligible concept of an
abstract idea. Given our determination that claims 4
and 5 are not directed to the patent-ineligible concept
of an abstract idea, we need not consider whether the
challenged claims lack an inventive concept.
3.

Conclusion

Based on the record before us, Petitioner has not
demonstrated that it is more likely than not that
challenged claims 1–6 are unpatentable under 35
U.S.C. § 101.

D. Obviousness Based on Figure 2 of the ’945 Patent
and Randle

Petitioner contends that claims 1–6 of the ’945
patent are unpatentable under 35 U.S.C. § 103 as
obvious based on Figure 2 of the ’945 patent and
Randle. After considering the Petition and the
Preliminary Response, we are persuaded that, based
on the record before us, Petitioner has demonstrated
that it is more likely than not that challenged claims
1–6 are obvious over Figure 2 of the ’945 patent and
Randle, for the reasons provided herein.

61a
1.

Overview of Figure 2 (Ex. 1002, fig. 2)

The specification of the ’945 patent describes a
prior art method of processing paper checks as shown
in Figure 2 reproduced below:

FIG. 2 is a schematic diagram of a prior art system
for converting a check in a merchant’s back office.
With the prior art system, a merchant scans
checks in a back office conversion to generate a
digital image file of each check. Ex. 1002, 3:1–4; 5:1–
4.
As shown in Figure 2, a check data file
transferred to the TPPP via block 4 may optionally
include the digital image file of the check. At block
10, the TPPP determines whether to direct the check
data file through the ACH network or paper check
processing network, both of which serve to debit a
consumer account and credit a merchant account.
The TPPP also archives the digital image file and the
check data file.

2.

62a
Overview of Randle (Ex. 1012)

Randle is directed to electronic transaction
processing, including “secure, accurate and verified
imaging of financial instruments, check truncation
and electronic funds payment, settlement and
clearing.” Ex. 1012, ¶ 2. Specifically, the system of
Randle
allows for secure check truncation at the point of
presentment or any other step in the item processing
chain by creating a file containing an image of the
check and a file containing transaction data related
to the paper check, each of which can be transmitted
together or separately in a network and subsequently
uniquely matched and or integrated for check
processing.
Id. ¶ 76. According to Randle, the deposit bank
captures a check and related information by scanning
to create an image of the check, which is in addition
to creating a data file containing MICR data of the
check. Id. ¶ 80. Specifically, “separate data file 10
and image plus data file 11 are separately
manipulated and processed for settlement, payment
and clearing.” Id. Noting that smaller size data files
may be transferred more quickly than larger image
files, Randle discloses that
the clearing house has a capability to timely notify
financial institution participants of debit and credit
obligations that will accrue upon actual receipt and
processing of the imaged instruments upon
conclusion of a periodic, or other, settlement . . .
[a]fter clearing, the checks (in image/IRD form) are
returned to payor banks 22 where they are
separately processed and associated with individual

63a
payor's accounts, and returned, as data and/or a
complete or partial image, to the payor in or
accompanying an account statement 25. The payee
bank 21, receiving funds, will assign the funds and
credit the respective individual payee 3.
Id.
3.

Claim 1

Turning to claim 1, Petitioner contends that
Figure 2 of the ’945 patent discloses the limitations of
step (a), step (b), and portions of step (c) of claim 1,
and indicates where these limitations are disclosed
by the drawing. Id. at 48–51. With regards to
Randle, Petitioner contends that Randle discloses
portions of step (c) and step (d), and sets forth where
these limitations are disclosed in Randle. Id. at 51–
52. Acknowledging that Figure 2 and Randle do not
expressly disclose performing step (c), i.e., scanning a
paper check, after step (b), i.e. crediting the
merchant account, Petitioner argues “this sequencing
would be obvious to one of skill based on Figure 2 in
view of Randle.” Pet. 52.
Specifically, Petitioner argues claim 1 is obvious
because it merely reverses the sequence in which the
steps of “[m]aking a digital image of a paper check
and associating it with [] data regarding the check”,
i.e., step (c), and “[c]rediting the merchant’s account,”
i.e., step (b), are performed. Id. at 57. According to
Petitioner, Figure 2 discloses that the merchant’s
account can be credited without imaging the check at
all, though imaging the check is optional, and Randle
discloses that the check can be imaged before the
merchant’s account is credited. Id. at 58–59. Thus,
Petitioner reasons that the sequence between the

64a
steps of crediting the merchant’s account and
imaging the check is based on “finite and well
understood possibilities.”
Id.
Based on this
understanding, Petitioner asserts that changing the
order of steps from the prior art methods is prima
facie obviousness. Id. (citing Ex parte Rubin, 128
USPQ 440 (BPAI 1959); In re Burhans, 154 F.2d 690
(CCPA 1946); In re Gibson, 39 F.2d 975 (CCPA 1930).
Changing the order of steps would not provide new or
unexpected results, according to Petitioner, because
one of skill in the art, as evidenced by prior art
Figure 2 at the time of filing, would have readily
recognized that a data file without the image may be
sent for ACH processing, and Randle discusses the
time-saving advantage of not having the merchant
scan the check and associate the resulting image
with the data file. Id. at 59.
On this record, we are persuaded by Petitioner’s
contentions that merely reversing the order of two
steps is prima facie obvious, and that there is no new
or unexpected result attained by changing the order
between the scanning and crediting steps.
Id.
Specifically, Figure 2 suggests in blocks 3 and 4 that
scanning and transmitting the scanned image to the
TPPP is optional; and in block 10 the image is
archived by the TPPP.
Thus, based on these
teachings, it follows that the check image would be
scanned either by the merchant or the TPPP, that
both techniques were known, and that it would have
been within the abilities of one of ordinary skill to
implement the techniques in any order, as two
options is the epitome of a finite number of options.
See KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 403
(2007) (“When there is a design need or market
pressure to solve a problem and there are a finite

65a
number of identified, predictable solutions, a person
of ordinary skill in the art has good reason to pursue
the known options within his or her technical grasp.
If this leads to the anticipated success, it is likely the
product not of innovation but of ordinary skill and
common sense”). On this record, we are persuaded
that the known need to credit the merchant more
quickly provides a sufficient rationale to carry out
the admittedly known scanning and crediting
limitations of independent claim 1 in any order that
would expedite the process.
Accordingly, for the reasons explained above, we
are persuaded Petitioner has demonstrated that it is
more likely than not that claim 1 of the ’945 patent is
unpatentable as obvious over the combination of
Figure 2 of the ’945 patent and Randle.
4.

Claims 2–6

Dependent claims 2, 3, and 6 each depend from
claim 1 and include additional limitations. Likewise,
independent claims 4 and 5 are similar to claim 1,
and include additional limitations. Petitioner relies
on the cited portions of Figure 2 of the’945 patent
and Randle as satisfying the claim limitations of
claims 2–6. Pet. 48-71. Petitioner argues that claims
2–6 are obvious for the reasons provided with respect
to claim 1. Id.
For the reasons provided supra with respect to
claim 1, we are persuaded similarly by Petitioner’s
contentions and supporting evidence concerning
claims 2–6. Accordingly, we are persuaded that
Petitioner has demonstrated that it is more likely
than not that claims 2–6 of the ’945 patent are
unpatentable as obvious over the combination of

66a
Figure 2 of the ’945 patent and Randle.
5.

Conclusion

Petitioner has shown that it is more likely than
not that claims 1–6 are unpatentable as obvious over
the combination of Figure 2 of the ’945 patent and
Randle.

IV.

CONCLUSION

For the foregoing reasons, we determine that the
information presented in the Petition demonstrates
that it is more likely than not that Petitioner would
prevail in establishing that claims 1-6 of the ’945
patent are unpatentable based on 35 U.S.C. § 103(a).
We also determine that the information presented in
the Petition does not demonstrate that it is more
likely than not that Petitioner would prevail in
establishing that claims 1-6 of the ’945 patent are
unpatentable based on 35 U.S.C. § 101. The
Board, however, has not made a final determination,
under 35 U.S.C. § 328(a), as to the patentability of
any challenged claim.

V.

ORDER

For the foregoing reasons, it is
Ordered that, pursuant to 35 U.S.C. § 324(a), a
covered business method patent review of the ’945
patent is hereby instituted as to the following claims
and grounds: claims 1–6 as unpatentable under 35
U.S.C. § 103(a) as obvious over Figure 2 of the ’945
patent and Randle;

67a
FURTHER ORDERED that all other grounds
raised in the Petition are denied for the reasons
discussed; and
FURTHER ORDERED that pursuant to 35
U.S.C. § 324(d) and 37 C.F.R. § 42.4, notice is hereby
given of the institution of a trial; the trial commences
on the entry date of this decision

